Supreme Court, U.S.
FILED

WAIVER

MAY 2 6 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1268

Jeanetta Springer, et al.

Wells Fargo Bank, N.A., et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate boxes:
_ Please enter my appearance as Counsel of Record for all respondents.
.X There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Wells Fargo Bank, N.A.

_ I am a member of the Bar of the Supreme Court of the United States.
.X I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date:

5/26/20

(Type or print) Name

Jade Eleanor Sipes
o Mr. • Ms. o Mrs. o Miss

Firm

Baker, Donelson, Bearman, Caldwell & Berkowitz, PC

Address

420 20th Street North, Suite 1400

City & State
Phone

Birmingham, Alabama

205-328-0480

Zip
Email

35203

jsipes@bakerdonelson.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jacob and Jeanetta Springer, 195 Cynthia Circle, Roanoke, Alabama 36274

RECEIVED
MAY 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

